IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-74
UNITED STATES OF AMERICA, PETITIONER
v.
IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.
_______________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR PARTIAL DISMISSAL
OF THE CONSOLIDATED PETITION FOR A WRIT OF CERTIORARI
ONLY WITH RESPECT TO THE JUDGMENT OF THE COURT OF APPEALS
IN IMAGE PROCESSING TECHNOLOGIES LLC V. SAMSUNG ELECTRONICS CO.,
NOS. 2018-2156, 2019-1408, and 2019-1485
_______________
Pursuant to Rule 46.2(a) of the Rules this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves to dismiss in part the government’s consolidated petition
for a writ of certiorari only as to the judgment of the court of
appeals

in

Image

Processing

Technologies

LLC

v.

Samsung

Electronics Co., Nos. 2018-2156, 2019-1408, and 2019-1485.

The

government does not move to dismiss the petition for a writ of
certiorari with respect to any of the other judgments of the court
of appeals that are encompassed by the consolidated petition filed
under Rule 12.4; the government respectfully submits that the
petition

should

judgments.

be

held

with

respect

to

all

of

those

other

The government filed the consolidated petition for a

2
writ of certiorari on July 23, 2020, and the petition is currently
pending before the Court.

No fees are currently due the Clerk.

Petitioner has assumed the costs with respect to the court of
appeals’ judgment in Image Processing Technologies LLC, supra.

No

party to that judgment opposes this motion.
1.

These

cases

concern

whether,

under

the

Appointments

Clause, U.S. Const. Art. II, § 2, Cl. 2, administrative patent
judges of the United States Patent and Trademark Office (USPTO)
are principal officers who must be appointed by the President with
the advice and consent of the Senate, or “inferior Officers” whose
appointment Congress may vest in a department head.

In Arthrex,

Inc. v. Smith & Nephew, Inc., 941 F.3d 1320 (2019), petitions for
cert. pending, Nos. 19-1434 (filed June 25, 2020), 19-1452 (filed
June 29, 2020), and 19-1458 (filed June 30, 2020), the Federal
Circuit

held

that

administrative

patent

judges

are

principal

officers and that the statutorily prescribed method of appointing
administrative patent judges -- by the Secretary of Commerce acting
alone, see 35 U.S.C. 6(a) -- violates the Appointments Clause.
941 F.3d at 1327-1335.
In each of the judgments encompassed by the government’s
consolidated petition in this case, the court of appeals vacated
one or more decisions of the Patent Trial and Appeal Board (Board)
based on Arthrex and remanded for further proceedings.

On July

23, the government filed a consolidated petition under Rule 12.4

3
requesting that the Court hold the consolidated petition pending
this Court’s disposition of the government’s petition for a writ
of certiorari in Arthrex, and any further proceedings in this
Court, and then dispose of the government’s consolidated petition
as appropriate.
2.

Since

the

filing

of

the

government’s

consolidated

petition, the private parties to one of the Federal Circuit’s
judgments

encompassed

Processing

by

Technologies

the
LLC

consolidated
v.

petition

Samsung

--

Image

Electronics

Co.,

Nos. 2018-2156, 2019-1408, and 2019-1485 -- have settled their
patent dispute and jointly moved to terminate the proceedings
before the Board (on remand from the court of appeals) concerning
the validity of the relevant patent claims.
that

request

proceedings.

and

terminated

the

The Board has granted

post-remand

administrative

In light of that termination, the government no

longer seeks review of the court of appeals’ order vacating the
Board’s prior decisions in those particular proceedings.

The

government accordingly requests that the consolidated petition be
dismissed in part, solely with respect to the court of appeals’
judgment in Nos. 2018-2156, 2019-1408, and 2019-1485.
The

government’s

consolidated

petition

for

a

writ

of

certiorari in this case also seeks review of 38 additional orders
of the Federal Circuit.

See Pet. 11-19, 23-26; Pet. App. 3a-84a.

The government does not move to dismiss the consolidated petition

4
as to the court of appeals’ judgments in any of those other cases.
The

government

continues

to

request

that

the

Court

hold

the

consolidated petition as to all of those other cases pending the
disposition of the government’s petition in Arthrex, No. 19-1434,
and any further proceedings in this Court, and then dispose of the
consolidated petition as appropriate. *
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
SEPTEMBER 2020

Because the particular judgment of the court of appeals
as to which the government seeks partial dismissal happens to be
the case listed in the short caption of the government’s
consolidated petition, it may be appropriate to revise the case’s
short caption to refer to one of the other 38 judgments of the
court of appeals encompassed by the consolidated petition. For
example, the next case listed in the consolidated petition
(corresponding to the Federal Circuit’s judgment in No. 2019-2315,
Pet. App. 3a-4a) is captioned: Andrei Iancu, Under Secretary of
Commerce for Intellectual Property and Director, U.S. Patent and
Trademark Office v. Eugene H. Luoma, et al.
*

